Case: 1:18-cv-02471 Document #: 35 Filed: 08/07/19 Page 1 of 4 PagelD #:215
Pages: 4
Case:
18-3185 D9a5Weikals94iii Disped6814°712019
To be cited only in accordance with Fed. R. App. P. 32.1

ainiteb States Court of Appeals
For the Seventh Circuit
Chicago,. Illinois 60604
Submitted June 28, 2019*
Decided July 16, 2019
Before
JOEL M. FLAUM, Circuit Judge

CERTIFIED COPY
AT

9,9

of thgp
C,ouri: of/
Soventh

DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

No. 18-3185
EDWARD A. WEINHAUS,
Plaintiff-Appellant,

v.
NATALIE B. COHEN, et al.,
Defendants-Appellees.

Appeal from the United States'District
Court for the Northern District of Illinois,
Eastern Division.
No. 18 C 2471
Rebecca R. Pallmeyer,
Chief Judge.
ORDER

Edward Weinhaus sued his ex-relatives and the state of Illinois over provisions
in a state-court custody judgment that required Weinhaus to exercise his parenting time
outside Illinois. He contends that this requirement violates his constitutional right to
trawl and that the custody proceedings generally violate his right to due process. The
district court granted the defendants' motions to dismiss. Because it rightly concluded

' We have agreed to decide the case without oral argument because the appeal is
frivolous and, oral argument would not significantly aid the court. See FED. R. APP. P.
34(a)(2)(A).

Appendix A

Case: 1:18-cv-02471 Document #: 35 Filed: 08/07/19 Page 2 of 4 PagelD #:215
Filed: 08/07/2019
Pages:.4
Case: 18-3185
Document: 00713464066
Page 2

No. 18-3185

that it lacked subject-matter jurisdiction under the domestic-relations exception to
federal jurisdiction and the Rooker-Feldman doctrine, we affirm.
Weinhaus and Natalie Cohen filed for divorce in 2012 in the Circuit Court of
Cook County, Illinois. (We recite the factual allegations and draw all reasonable
inferences in favor of Weinhaus. See Evers v. Astrue, 536 F.3d 651, 656 (7th Cir. 2008).)
Later, they agreed to a joint-custody judgment that addressed the care of their five
children. Under that judgment, Cohen is the primary residential parent and resides in
Illinois with the children. Weinhaus, a resident of Missouri, may conduct his parenting
time outside of Illinois on specified weekends and school breaks. In 2016, Weinhaus and.
Cohen agreed to a modified judgment. One modification provided that Weinhaus's
parenting time on certain weekends and school. breaks "shall" be exercised outside of
Illinois. The following year, Weinhaus moved to modify the judgment to remove the
requirement that he "shall" exercise parenting time outside of Illinois.
A month before the hearing on his motion to modify, Weinhaus turned to federal
court, invoking 42 U.S.C. §§ 1983 and 1985(3) to sue Cohen, her new husband, her
parents ("the Cohen defendants"), and the state of Illinois. He contends that, because
the custody judgment.equires that he spend his time with his children outside of
Illinois, and the defendants interpret the judgment that way, they have violated his
right to travel within Illinois with his children. He argues also that they have violated
his right to due process because the order was entered without proper procedures,
without considering the best interests of the children, without recognizing that he was
under duress, and after interfering with his right to self-representation.
The district court granted the defendants' motions to dismiss under Federal Rule
of Civil Procedure 12(b)(1) and (6). The judge concluded that both the domesticrelations exception to federal jurisdiction and the Rooker-Feldman doctrine barred the
court's review of the case. See District of Columbia Court of Appeals a Feldman, 460 U.S.
462 (1983); Rooker v. Fidelity Trust Co., 263 U.S. 413 (1.923). (The judge also ruled that the
custody order did not violate Weinhaus's right to travel and that the state was immune
under the Eleventh Amendment.) Because there was "no possibility that [Weinhaus's]
allegations can support a good faith claim within this court's jurisdiction," the judge
declined to allow him leave to amend the complaint. We review Weinhaus's appeal of
the dismissal de novo. See Kowalski v. Boliker, 893 F.3d 987, 994 (7th Cir. 2018).
Weinhaus contends that the domestic-relations exception to federal jurisdiction
does not block this suit, but the district judge correctly ruled that it does. The exception

Appendix A

Case: 1:18-cv-02471 Document #: 35 Filed: 08/07/19 Page 3 of 4 PagelD #:215
Filed: 08/07/2019 Pages: 4
Case: 18-3185 Document: 00713464066

Page 3

No. 18-3185

precludes federal review of state-court decisions "'involving the granting of divorce,
decrees of alimony,' and child custody orders." Kowalski, 893 F.3d at 995 (quoting
Ankenbrandt v. Richards, 504 U.S. 689, 701-02 (1992)). Weinhaus argues that the
domestic-relations exception applies only to diversity-jurisdiction cases, not to
federal-question cases, like his. But it applies in both types of suits. Kowalski, 893 F.3d
at 995; Jones v. Brennan, 465 F.3d 304, 306-07 (7th Cir. 2006). The reason is that state
courts, which "have developed a proficiency in core probate and domestic-relations
matters," Struck a Cook Cty. Pub. Guardian, 508 F.3d 858, 860 (7th Cir. 2007), may also
decide issues of federal law, so "confining a class of federal-law cases to state courts
does not deprive litigants of their federal rights," Jones, 465 F.3d at 307.
To avoid the exception, Weinhaus suggests three possible end-runs, but they are
all unavailing. First, he relies on Kowalski to contend that the exception does not apply
because he is merely attacking a third party's "tortious interference" with a family-law
case. See 893 F.3d at 995-96. In Kowalski, the plaintiff alleged that defendants corruptly
tried to influence how a judge decided a divorce suit. Because that claim—undue
influence—was not based on family law, we ruled that the domestic-relations exception
did not apply (though we decided for other reasons that the plaintiff failed to state a
claim). Id. Weinhaus's claim is different. He complains that his ex-relatives are using the
custody judgment itself to restrict access to his children in Illinois, so the claim depends
entirely on domestic-relations law. Second, Weinhaus contends that the exception does
not apply because the state court "lacked jurisdiction" after it deprived him of his
procedural rights and failed to consider the best interests of the children. But these are
arguments for a direct appeal in state court; they are not grounds for federal courts to
exercise jurisdiction. See id. Third, Weinhaus observes that he and Cohen are now
divorced and the circuit court has awarded custody, so no domestic-relations case is
pending there. But this lawsuit is a dispute over child custody, a matter under the
continuing supervision of state courts, so the domestic-relations exception applies.
Based on Weinhaus's last contention—that the domestic-relations case is over—
the Rooker-Feldman doctrine also precludes our review. The doctrine prevents federal
district and appellate courts from deciding cases by litigants complaining of injuries
from state-court judgments rendered before the federal suit commenced and seeking
federal review and reversal of those judgments. See Exxon Mobil Corp. v. Saudi Basic
Indus. Corp., 544 U.S. 280, 284 (2005). Weinhaus's alleged injury comes from the
provisions in the custody judgment requiring him to exercise his parenting time outside
of Illinois. The state court entered that judgment and modified it before Weinhaus sued
in federal court for review and relief from that judgment, so Rooker-Feldtnan applies.

Appendix A

Case: 1:18-cv-02471 Document #: 35 Filed: 08/07/19 Page 4 of 4 PagelD #:215
Case: 18-3185

Document: 00713464066

No. 18-3185

Filed: 08/07/2019

Pages: 4

Page 4

Weinhaus raises two arguments that the Rooker-Feldman doctrine is inapplicable,
but they are as meritless as his contentions about the domestic-relations exception. The
doctrine does not preclude our review, he first submits, because the modified judgment
is "void." It is void, he says, because he agreed to it under duress, the state court failed
to consider the best interests of the children, and the court lacked authority to require
him to raise his children outside of Illinois. But the doctrine precludes federal
jurisdiction "no matter how erroneous or unconstitutional the state court judgment may
be" because the Supreme Court of the United States is the only federal court with
jurisdiction to review a state-court judgment. Remer v. Burlington Area Sch. Dist.,
205 F.3d 990, 996 (7th Cir. 2000). Second, he argues that he does not challenge only the
state-court judgment; he also contests the defendants' procedural tactics in court (such
as allegedly preventing him from having a hearing and criticizing his
self-representation) that led to the adverse custody judgment. But there is no
"procedural exception" to the doctrine—it applies to "the procedures used by state
courts to reach decisions" where, as here, "Inio injury occurred until the state judge
ruled against" the federal plaintiff. Harold a Steel, 773 F.3d 884, 886 (7th Cir. 2014).
Because:the district court lacked jurisdiction, we do not reach Weinhaus's
remaining arguments. Therefore, we affirm the district court's dismissal, though the
judgment is modified to be for lack of subject-matter jurisdiction.
A final matter remains: the Cohen defendants moved for sanctions under Rule 38
of the:Federal Rules of Appellate Procedure, to which Weinhaus has responded in
opposition. Sanctions are indeed warranted. The suit is plainly blocked by the
domestic-relations exception and the Rooker-Feldman doctrine. To avoid the
jurisdictional problem, Weinhaus contends that the state-court judgment violates his
rights to due process and to travel interstate. But his arguments do not circumvent the
impediments to jurisdiction, and they ignore our case law and the arguments raised by
the Cohen defendants and the state of Illinois. Thus, the Cohen defendants' motion is
GRANTED, and they may file, within M days of this order, a statement of the attorneys
fees and other expenses reasonably incurred in defending this appeal. Weinhaus shall
file any response no later than 21 days after the Cohen defendants file their statement.
AFFIRMED AS MODIFIED, WITH SANCTIONS

Appendix A

Case: 1:18-cv-02471 Document #: 22 Filed: 09/14/18 Page 1 of 1 PagelD #:179

UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois — CM/ECF LIVE, Ver 6.2.2
Eastern Division
Edward A. Weinhaus
Plaintiff,
v.

Case No.: 1:18—cv-02471
Honorable Rebecca R. Pallmeyer

Natalie B. Cohen, et al.
Defendant.

NOTIFICATION OF DOCKET ENTRY

This docket entry was made by the Clerk on Friday, September 14, 2018:
MINUIE entry before the Honorable 'Rebecca R. Pallmeyer: Ruling held on
9/14/2018. Plaintiffs allegations do not satisfy the court that the agreed order entered by
the state courts violates his constitutional right to travel. In any event, the State of Illinois
enjoys Eleventh Amendment immunity The domestic relations exception to this court's
jurisdiction is applicable here, and the Rooker—Feldman doctrine applies to bar federal
court review of the state courts' orders. For these reasons, Natalie B. Cohen's, Steven
Cohen's, Barry Chernawsky's, and Adrienne Chernawsky's motion to dismiss complaint
pursuant to Rule 12(b)(6) [10], and State of Illinois' Rule 12(b)(1) motion to dismiss [14]
are granted. Because the court perceives no possibility that Plaintiffs allegations can
support a. good faith claim within this court's jurisdiction, the court declines to allow leave
to amend. Dismissal is with prejudice to the case in this court. Judgment will enter.
Mailed notice. (etv, )

ATTENTION: This notice is being sent pursuant to Rule 77(d) of the Federal Rules of
Civil Procedure or Rule 49(c) of the Federal Rules of Criminal Procedure. It was
generated by CM/ECF, the automated docketing system used to maintain the civil and
criminal dockets of this District. If a minute order or other document is enclosed, please
refer to it for additional information.
For scheduled events, motion practices, recent opinions and other information, visit our
web site at www.ilnd.uscourts.gov.

Appendix B

pep241,1 Document #: 23 Filed: 09/14/18 Page 1 of 1 PagelD #:180.

ILND 450 (Rev. lgfilgetdirn

IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Edwand A. Weinhaus,
Plaintiff,
Case No. 18 C 2471
Judge Rebecca R Pallmeyer

v.

Natalie B.Cohen, Steven Cohen, Barry
Chemawsky, The State of Illinois
Defendants.
JUDGMENT IN.A CIVIL CASE
Judgment is hereby entered (check appropriate box):
in favor of plaintiff(s)
and against defendant(S)
in the amount of $
which LJ includes
pre—judgment interest.
does not include pre—judgment interest.
Post-judgment interest accrues on that amount at the rate provided by law from the date of this judgment.
Plaintiff(s) shall recover costs from defendant(s).

E

in favor of defendant(s)
and against plaintiff(s)

Defendant(s) shall recover costs from plaintiff(s).

El

other: Motions to dismiss are granted. Case is dismissed withprejudice.

This action was (check one):
tried by a jury with Judge
presiding, and the jury has rendered a verdict.
tried by Judge
without a jury and the above decision was reached.
Z decided by Judge Rebecca R. Pallmeyer on motions to dismiss.

Date: 9/14/2018

Thomas G. Bruton, Clerk of Court
Ena T. Ventura , Deputy Clerk

Appendix B

Cas

1 18'3185 NalifingiTIAL SN05I63621

19 Pag s: 2

To be cited only in accordance with Fed. R. App. P. 32.1

liniteb *airs (Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
September 23, 2019
Before
JOEL M. FLAUM, Circuit Judge
DIANE S, SYKES, Circuit judge
DAVID F. HAMILTON, Circuit Judge
No. 18-3185
EDWARD A. WEINHAUS,
Plain tiff-Appellant,

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 18-CV-02471

NATALIE B. COHEN, et al.,
afendants-Appellees.

Rebecca R. Pallmeyer,
Chief Judge.
ORDER

On July 16, 2019, this court affirmed the judgment of the district court and
determined that the appeal was frivolous. Weinhaus v. Cohen, 773 F. App'x 314, 317 (7th
Cir. 2019). Because appellant Edward Weinhaus's appeal satisfied the standard for
sanctions under Rule 38 of the. Federal Rules of Appellate Procedure, we granted the
appellees' motion for sanctions and ordered the appellees to file with the court a
statement of the attorneys fees and other expenses reasonably incurred in defending
the appeal. They did so, and Weinhaus responded. We have reviewed the parties'
submissions, and we conclude that, under a state-court order, Weinhaus has already
paid any fees that might be awarded under Rule 38. In re Weinhaus, No. 12 D 008800 (Ill.
Cir. Ct. Apr. 8, 2019) (ordering appellant to pay $23,500 in appellee's attorneys fees
under 750 ILCS 5/508); see also Blixseth v. Yellowstone Mountain Club, LLC, 854 F.3d 626,

Appendix C

Case: 18-3185

Document: 49

Filed: 09/23/2019

Pages: 2

Page 2

No. 18-3185

631 (9th Cir. 2017); Sun-Tek Indus., Inc. v. Kennedy Sky-Lites, Inc., 865 F.2d 1254, 1255
(Fed. Cir. 1989). We therefore award no additional fees under Rule 38.
Weinhaus represented to this court that he waives his right to appeal the state
court's April 8, 2019, fee award. We have relied on that representation in deciding not to
award any further fees pursuant to Rule 38. See New Hampshire v. Maine, 532 U.S. 742,
750-51(2001); Seymour v. Collins, 39 N.E.3d 961, 973 (Ill. 2015), We also direct the clerk
of this court to forward a copy of this order and our July 16 order to the State Bar of
California.

Appendix C

